Nos. 19-4, 19-13

 

 

IN THE

Supreme Court of the United States

JACKSON NATIONAL LIFE INSURANCE COMPANY,

Petitioner,
v.

TAMARIN LINDENBERG, Individually and as Natural
Guardian of Her Minor Children ZTL and SML,

Respondent.

STATE OF TENNESSEE,

Petitioner,
v.

‘TAMARIN LINDENBERG, Individually and as Natural
Guardian of Her Minor Children ZTL and SML,

Respondent.

On Petitions for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,484 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 1, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
